No.
JOHN W. KIMBROUGH, III
Petitioner,
v.
RON NEAL, Superintendent,
Respondent.

Certificate of Service
I hereby certify that on this 11th day of January September, 2020, I served one
copy of the foregoing Application for Extension of Time to File Petition for Writ of
Certiorari to the United States Court of Appeals for the Seventh Circuit by United
States mail, first-class postage pre-paid to the following:
Kian Hudson,
Deputy Solicitor General
Office of the Indiana
Attorney General
IGC South, Fifth Floor
302 W. Washington St.
Indianapolis, IN 46204

Michael K. Ausbrook
Indiana Attorney No. 17223-53
Indiana University Maurer School of Law
Federal Habeas Project
211 South Indiana Avenue
Bloomington, IN 4 7402
(812) 322-3218
ma usbrook@gmail.com
Counsel of Record
Counsel for Petitioner

Dated: January 11, 2020

